TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         The Process for Individuals to
                      Report Suspected Tax Law Violations
                          Is Not Efficient or Effective



                                      September 10, 2012

                              Reference Number: 2012-40-106




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


THE PROCESS FOR INDIVIDUALS TO                        IRS to take action. Finally, the IRS routes
REPORT SUSPECTED TAX LAW                              identity theft referrals received on a
VIOLATIONS IS NOT EFFICIENT OR                        Form 3949-A as regular correspondence, which
EFFECTIVE                                             delays actions from being taken on identity theft
                                                      cases.
                                                      As a result, many referrals do not meet any
Highlights                                            criteria under which the IRS could or would be
                                                      able to take action(s). A lack of quality review
Final Report issued on                                resulted in referrals being destroyed.
September 10, 2012                                    Additionally, the forms are often used for other
                                                      purposes (e.g., claims by victims of identity
Highlights of Reference Number: 2012-40-106           theft). About 3,000 Forms 3949-A used to report
to the Internal Revenue Service Commissioner          identity theft were destroyed due to a lack of
for the Wage and Investment Division.                 procedures on how to process these claims.
                                                      Victims were not notified.
IMPACT ON TAXPAYERS
                                                      Ineffective routing procedures and oversight
The IRS website for reporting fraud was visited       have allowed Forms 3949-A to be misrouted to
501,218 times in Fiscal Year 2011, and during         the wrong functions. Others are mistakenly
that year 116,307 individuals submitted a             considered unworkable and retained for 90 days
Form 3949-A, Information Referral, to the IRS.        and then destroyed.
The IRS is not efficiently or effectively
processing these referrals. Reporting guidelines      WHAT TIGTA RECOMMENDED
provided to taxpayers and employees are
                                                      TIGTA recommended that the IRS: 1) revise
confusing and inconsistent and cause
                                                      IRS.gov to ensure taxpayers know the intended
individuals to use Forms 3949-A for other than
                                                      purpose of Form 3949-A; 2) improve internal
its intended purpose. This creates a burden on
                                                      and external guidance for reporting identity theft,
both the individuals and tax administration.
                                                      including a revision of Form 3949-A and
Additionally, a lack of oversight and effective
                                                      instructions; 3) ensure that an IRS-wide
procedures has resulted in workable
                                                      coordinated process is implemented, including
Forms 3949-A, including identity theft claims,
                                                      expediting identity theft claims; 4) implement
being destroyed without any acknowledgement
                                                      controls that include developing formal Internal
of receipt to the taxpayer.
                                                      Revenue Manual procedures, ensuring all
WHY TIGTA DID THE AUDIT                               employees have updated procedures for routing
                                                      documents; 5) conduct a feasibility study for
This audit was initiated based on a TIGTA Office      developing an online Form 3949-A that ensures
of Investigations referral which reported that        sufficient information is collected; and
thousands of identity theft cases reported on         6) evaluate the clerical unit routing process to
Forms 3949-A were not being processed.                determine if it would be more efficient if technical
                                                      employees assumed those responsibilities.
WHAT TIGTA FOUND
                                                      The IRS agreed with all recommendations and
Reporting guidelines provided to taxpayers and
                                                      plans to revise IRS.gov, clarify the intent of
employees are confusing and inconsistent.
                                                      Form 3949-A, review current procedures for
Instructions on Form 3949-A do not explain what
                                                      necessary changes, and evaluate steps to
types of fraud and tax law violations to report
                                                      ensure a more effective quality review process
using this form. As a result, individuals often
                                                      and tracking system. Finally, it plans to
use Form 3949-A for purposes other than
                                                      ascertain the feasibility of an online
reporting suspected tax fraud or tax law
                                                      Form 3949-A and assess the level of technical
violations. Additionally, because Form 3949-A
                                                      expertise required for the needs of the process
lacks specificity, taxpayers do not always
                                                      after considering the effects of the other
provide the IRS with sufficient information for the
                                                      corrective actions.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 10, 2012


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Process for Individuals to Report Suspected
                             Tax Law Violations Is Not Efficient or Effective (Audit # 201240034)

 This report presents the results of our review to evaluate whether the Internal Revenue Service is
 effectively processing Form 3949-A, Information Referral. This audit was added to our Fiscal
 Year1 2012 Annual Audit Plan and addresses the major management challenges of Fraudulent
 Claims and Improper Payments and Providing Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included in Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by
 the report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (770) 617-6434.




 1
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
 Government’s Fiscal Year begins on October 1 and ends on September 30.
                                   The Process for Individuals to Report Suspected
                                    Tax Law Violations Is Not Efficient or Effective




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Guidance for Individuals to Report Suspected Tax Law
          Violations Creates Burden for Taxpayers and Tax
          Administration .............................................................................................. Page 3
                    Recommendations 1 through 3:......................................... Page 8

          The Process for Routing Information Referrals Is Not
          Effective and Needs Improved Oversight ..................................................... Page 9
                    Recommendations 4 and 5: .............................................. Page 12

                    Recommendation 6:........................................................ Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Outcome Measures............................................................... Page 18
          Appendix V – Form 3949-A, Information Referral...................................... Page 19
          Appendix VI – Management’s Response to the Draft Report ...................... Page 21
        The Process for Individuals to Report Suspected
         Tax Law Violations Is Not Efficient or Effective




                 Abbreviations

IRS        Internal Revenue Service
TIGTA      Treasury Inspector General for Tax Administration
                             The Process for Individuals to Report Suspected
                              Tax Law Violations Is Not Efficient or Effective




                                           Background

When an individual wishes to report possible instances of Federal tax fraud by another
individual, the Internal Revenue Service (IRS) instructs him or her to complete Form 3949-A,
Information Referral, or to provide this information via a letter. Figure 1 is an excerpt from the
IRS public Internet website, IRS.gov, which provides guidelines for reporting suspected fraud.
                                Figure 1: Guidelines for Reporting
                                   Suspected Tax Fraud Activity
How Do You Report Suspected Tax Fraud Activity?
 If you suspect or know of an individual or company that is not complying with the tax laws, you may
 report this activity by completing Form 3949-A. You may fill out Form 3949-A online, print it, and mail
 it to:
 Internal Revenue Service
 Fresno, CA 93888
If you do not wish to use Form 3949-A, you may send a letter to the address above. Please include the
following information, if available:
       Name and address of the person you are reporting.
       The Taxpayer Identification Number (Social Security Number for an individual or Employer
        Identification Number for a business).
       A brief description of the alleged violation, including how you became aware of or obtained the
        information.
       The years involved.
       The estimated dollar amount of any unreported income.
       Your name, address, and daytime telephone number.
 Although you are not required to identify yourself, it is helpful to do so. Your identity can be kept
 confidential.
 Frequently Asked Questions – 1.13 IRS Procedures: Reporting Fraud [link to web page entitled
 IRS Procedures].
How to Report:
       Abusive Tax Promotions and/or Promoters:
        Complete the referral form [link to Form 14242, Report Suspected Abusive Tax Promotions or
        Preparers] which documents the information necessary to report an abusive tax avoidance
        scheme. The form can be mailed or faxed to the IRS address and fax number on the form.
       Fraudulent IRS e-Mails and Websites
        Visit this page if you receive an e-mail claiming to be from the IRS. [The IRS does not initiate
        contact with taxpayers by email or any social media tools to request personal or financial
        information. Link to web page on how to Report Phishing.]
Source: IRS.gov web page “How Do You Report Suspected Tax Fraud Activity?”


                                                                                                         Page 1
                               The Process for Individuals to Report Suspected
                                Tax Law Violations Is Not Efficient or Effective



In Fiscal Year 2011,1 the IRS website for reporting fraud was visited 501,218 times, and
116,307 Forms 3949-A were received by the Accounts Management function2 clerical unit in
Fresno, California. However, Forms 3949-A are not classified3 or investigated in that function;
the clerical unit is merely a conduit for the referrals. Figure 2 shows the volume of
Forms 3949-A the IRS received in Fiscal Years 2010 through 2012.
                                  Figure 2: Forms 3949-A Inventory
                                 for Fiscal Years 2010 Through 20124

                                                        Fiscal Year         Fiscal Year          Fiscal Year
                                                           2010                2011                 20125

     Total Receipts                                        89,944             116,307               54,842

     Receipts Routed for Further Review                    73,168             114,943               53,967

     Receipts Destroyed                                    14,628              12,401                6,104

     Ending Inventory                                       5,614               4,250                3,375

    Source: IRS management information reports.

This review was performed in the Wage and Investment Division Customer Account Services
Accounts Management function clerical unit in Fresno, California, and in the Accounts
Management function and Accounts Management function Project Management Office and
Support function in Oakland, California, during the period February through June 2012. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.



1
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
2
  The Accounts Management function in the Wage and Investment Division provides assistance to individual
taxpayers with tax and account-related inquiries via telephone, correspondence, and e-mail.
3
  Once Forms 3949-A are routed to the IRS functions, the allegations are reviewed and classified by technical
employees to determine if there are auditable issues.
4
  The IRS-reported categories of inventory do not equal total receipts, and the IRS stated that the information for
Fiscal Year 2010 is incomplete.
5
  As of March 24, 2012.
                                                                                                               Page 2
                              The Process for Individuals to Report Suspected
                               Tax Law Violations Is Not Efficient or Effective




                                      Results of Review

Guidance for Individuals to Report Suspected Tax Law Violations
Creates Burden for Taxpayers and Tax Administration
Reporting guidelines provided to taxpayers and employees are confusing and inconsistent.
Instructions on Form 3949-A do not explain what types of fraud and/or tax law violations may be
reported on this form. As a result, individuals often use Form 3949-A for purposes other than
reporting suspected tax fraud and/or tax law violations. Additionally, because Form 3949-A
lacks specificity, taxpayers do not always provide the IRS with sufficient information for the IRS
to take action. Finally, the IRS routes identity theft referrals received on Form 3949-A as regular
correspondence, which delays actions from being taken on identity theft cases.

Forms contain insufficient information or are used for purposes other than what
the IRS intended
A review of a statistical sample6 of 530 Forms 3949-A screened on April 24, 2012, at the
Accounts Management function clerical unit showed that 358 (68 percent) forms reviewed had
insufficient information or information not related to tax administration, or were being used for
purposes for which the form was not intended. An analysis of the 358 Forms 3949-A showed:7
        143 (27 percent) forms were unworkable because the taxpayer did not provide sufficient
         information.
        112 (21 percent) forms were used by individuals incorrectly to report that they were
         victims of identity theft.8
        49 (9 percent) forms were used incorrectly by individuals to report allegations that were
         not related to tax administration and could not be acted upon by the IRS.
        38 (7 percent) forms were incorrectly used by individuals to report that a known party
         (e.g., ex-spouse) is using the individual’s or his or her dependent’s Social Security
         Number on the known party’s tax return.



6
  The same statistical sample is referred to throughout the report.
7
  Percentages shown in the bullets do not add to 68 percent due to rounding.
8
  Identity theft is used to describe instances where the taxpayer reported that his or her Social Security Number or
dependent’s Social Security Number was used on another return either as primary or dependent and the person who
is using the identity is unknown.
                                                                                                             Page 3
                              The Process for Individuals to Report Suspected
                               Tax Law Violations Is Not Efficient or Effective



       16 (3 percent) forms were used by individuals to incorrectly report alleged fraud by a tax
        preparer.
Taxpayers can obtain information about reporting suspected tax fraud by:
       Calling the IRS toll-free telephone number (1-800-829-1040). An assistor should advise
        the caller/taxpayer to complete a Form 3949-A or to submit the information via a letter
        and mail it to: IRS, Fresno, California, 93888. Form 3949-A can be obtained from
        IRS.gov or can be mailed to the taxpayer.
       Calling the Tax Fraud Referral Line (1-800-829-0433). This is an automated line that
        provides instructions for reporting tax fraud and abuse.
       Researching IRS.gov.
       Visiting a local IRS Taxpayer Assistance Center.9
However, in all cases, the individuals are instructed to complete Form 3949-A and mail it to the
IRS in Fresno, California. IRS employees are instructed to not take the information from the
taxpayer but should only offer to help the taxpayer obtain Form 3949-A by directing the taxpayer
to IRS.gov or by having Form 3949-A mailed to the taxpayer.
Form 3949-A guidance is unclear and inconsistent
Neither Form 3949-A nor IRS.gov explains what is considered fraud activity to be reported on
Form 3949-A. The only reference to fraud provided is a link to “Frequently Asked Questions –
1.13 IRS Procedures,” which links to the following:

            Reporting Fraud

            1. What can I do if I think someone has filed a tax return using my Social Security
               Number?

Additionally, even though the IRS.gov web page advises individuals to use Form 3949-A to
report an individual or company that is not complying with the tax laws, nowhere on
Form 3949-A is fraud mentioned. There are no instructions on the form itself as to what should
be reported on it.
Moreover, the IRS.gov web page “How Do You Report Suspected Tax Fraud Activity?” (see
Figure 1) does not specify what should not be reported using Form 3949-A. IRS.gov does not
state that fraud related to a preparer should be reported on Form 14157, Complaint: Tax Return
Preparer. By way of the link to Frequently Asked Questions, taxpayers can find what to do if
they believe they have been a victim of identity theft. However, if taxpayers choose not to use

9
  An IRS office with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
                                                                                                           Page 4
                              The Process for Individuals to Report Suspected
                               Tax Law Violations Is Not Efficient or Effective



the link, they may use Form 3949-A to report someone else has used their Social Security
Number to file a tax return.
Form 14157, recently revised in May 2012, is two pages and could be used as a best practice
when considering revisions to Form 3949-A. For example, Form 14157 clearly identifies the
purpose of the form, the name of the preparer who is the subject of the complaint, and the contact
information of the individual reporting the complaint.
Form 3949-A requests the taxpayer’s name on Line 1 as well as “your information” on Line 6.
Based on an analysis of completed Forms 3949-A, taxpayers are unsure where to put their name
and/or the name of the individual they are referring. In some instances, taxpayers listed the same
name in Line 1 and Line 6, and the IRS was unable to determine which individual was the
subject of the referral.
Guidance followed by Taxpayer Assistance Centers leads to incorrect use of Form 3949-A
Individuals who visit Taxpayer Assistance Centers to report suspected identity theft were
incorrectly advised to use Form 3949-A. Internal guidelines stated that the Taxpayer Assistance
Center assistors should instruct taxpayers to prepare Form 3949-A when they have knowledge of
another person filing a Federal tax return with a stolen Social Security Number. The taxpayer is
then instructed to mail the Form 3949-A to the IRS in Fresno, California.
After bringing this to the IRS’s attention, on April 25, 2012, IRS management alerted assistors in
the Taxpayer Assistance Centers of the issue. When a taxpayer visits a Taxpayer Assistance
Center to report that someone is filing a tax return using his or her Social Security Number,
employees are now instructed to advise the taxpayer to complete Form 14039, Identity Theft
Affidavit. Taxpayers will need to file a paper return and return to the Taxpayer Assistance
Center with the documentation.

Clarifying guidance would reduce the volume of Forms 3949-A received by the
IRS
Many Forms 3949-A reviewed did not meet any criteria under which the IRS could or would be
able to take action(s). In addition, because of the lack of specificity on Form 3949-A, taxpayers
are not providing the IRS with sufficient information on which it could take action. Therefore,
the IRS most often takes no action on those Forms 3949-A.
The IRS’s Accounts Management function clerical unit in Fresno, California, routes
Forms 3949-A. However, the forms are not classified or investigated by that unit; it is merely a
conduit for the complaints. Clerical unit clerks sort Forms 3949-A and forward them to other
IRS functions10 or, if not workable, are retained for 90 days and then destroyed. Forms 3949-A


10
  After Forms 3949-A are received by the IRS functions, the forms are classified to determine whether there are
auditable issues based on the allegations presented on the Forms 3949-A.
                                                                                                           Page 5
                               The Process for Individuals to Report Suspected
                                Tax Law Violations Is Not Efficient or Effective



in the Retention category are not workable and are destroyed after 90 days. Figure 3 represents
the Form 3949-A process in the Accounts Management function clerical unit.
                                 Figure 3: Forms 3949-A Processing




               Source: Observation and interviews with IRS officials.

Our statistical sample of 530 Forms 3949-A identified that 192 (36 percent)11 were not tax
related or lacked needed information. Based on the 116,307 Forms 3949-A received in Fiscal
Year 2011, the IRS could potentially process 41,871 Forms 3949-A that are not routable.
Taxpayers sent these Forms 3949-A to the IRS only for the forms to be ultimately destroyed.
The sender was not notified of the destruction.
Forms 3949-A used to report identity theft were mishandled
The Accounts Management function clerical unit does not have adequate procedures in place to
process Forms 3949-A that taxpayers submitted to report that they have been victims of identity

11
  These 192 forms are the 143 + 49 forms discussed in the bullets on page 3 of this report. The remaining forms
discussed in those bullets (112 + 38 + 16 = 166), while reported on the incorrect form, are issues for which the IRS
can take action.
                                                                                                             Page 6
                               The Process for Individuals to Report Suspected
                                Tax Law Violations Is Not Efficient or Effective



theft. As a result, the forms were not forwarded for appropriate actions, and most were
destroyed.
Prior to Fiscal Year 2009, Forms 3949-A were generally destroyed if identity theft was reported
on them. In Fiscal Year 2009, clerical unit staff became concerned about the growing emphasis
on identity theft and attempted to establish procedures for processing identity theft reported on
Forms 3949-A. However, the Identity Protection Specialized Unit12 refused to accept the
Forms 3949-A, and procedures were never developed. The inventory of these Forms 3949-A
began to build and in December 2010 approximately 3,000 Forms 3949-A were destroyed, in
part because there were no procedures and no letters existed for contacting the identity theft
victims.
In March 2012, temporary procedures were established to handle another buildup of
Forms 3949-A inventory. On May 2, 2012, the IRS implemented guidelines instructing
employees to treat Form 3949-A used to report identity theft as a Form 14039, Identity Theft
Affidavit. The Form 3949-A, accepted as a Form 14039, must have an attached police report and
State/Federal identification. However, this is inconsistent with IRS identity theft procedures that
state a Form 14039 may be accepted as a claim of identity theft without a police report.
In addition, it was not until March 2012 that the first procedures were established for
dependent-related identity theft issues,13 even though the Accounts Management function clerical
unit did not consider dependent-related identity theft issues to be identity theft. However,
employees are instructed to send Forms 3949-A reporting dependent-related identity theft to the
Accounts Management function for assignment and resolution, classified as regular taxpayer
correspondence. These forms should receive priority and be classified as identity theft cases.
Taxpayers will experience delays until Forms 3949-A are classified as identity theft and
subsequently sent to an Identity Theft unit to be worked and resolved. In a prior Treasury
Inspector General for Tax Administration (TIGTA) report,14 an analysis of correspondence
identified that the average time to work a correspondence case was approximately 60 days. The
60 days will be in addition to the time it already takes to work an identity theft case. Another
prior TIGTA report stated that it can take up to a year to resolve an identity theft case.15
Tax returns submitted by identity theft victims with Forms 3949-A are not processed timely.
The IRS has developed IRS-wide identity theft procedures to ensure effective victim assistance

12
   The intent of this unit is to enable victims of identity theft to have their questions answered and issues resolved
quickly and effectively. This unit does not actually resolve identity issues but monitors the status of cases worked in
designated identity theft units.
13
   Dependent-related identity theft issues are claims by the taxpayer that his or her Social Security Number or his or
her dependent’s Social Security Number has been used on another tax return of an unknown person.
14
   TIGTA, Ref. No. 2011-40-058, Taxpayers Do Not Always Receive Quality Responses When Corresponding About
Tax Issues (Jul. 2011).
15
   TIGTA, Ref. No. 2012-40-050, Most Taxpayers Whose Identities Have Been Stolen to Commit Refund Fraud Do
Not Receive Quality Customer Service (May 2012).
                                                                                                              Page 7
                          The Process for Individuals to Report Suspected
                           Tax Law Violations Is Not Efficient or Effective



and processing of claims, including tax returns. However, the Accounts Management
function clerical unit has not incorporated procedures for routing tax returns submitted with
Forms 3949-A reporting identity theft. Tax returns identified in the sample of
530 Forms 3949-A were still not posted by the IRS as of June 21, 2012.
The IRS’s mission is to provide America’s taxpayers top-quality service by helping them
understand and meet their tax responsibilities and enforce the law with integrity and fairness to
all. Clear and consistent guidelines are essential to ensure that taxpayers who submit
Forms 3949-A receive top-quality service.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Revise IRS.gov to ensure taxpayers know the intended purpose of
Form 3949-A. It should state that the Form 3949-A is not to be used to report identity theft or
complaints against tax return preparers and provide instruction and/or links for how to report
those issues.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will revise IRS.gov content to more clearly explain the purpose of Form 3949-A and
       clarify instructions on reporting issues for which specialized forms have been developed.
Recommendation 2: Improve both internal and external guidance for reporting identity theft,
including a revision of Form 3949-A and instructions, specifically stating the Form 3949-A
should not be used for reporting claims of identity theft. In addition, ensure the language and
information is consistent with internal and external guidelines and the intended purpose is fraud
and/or tax law violations.
       Management’s Response: IRS management agreed with this recommendation and is
       revising the wording on Form 3949-A to indicate it should not be used for reporting
       identity theft and certain other issues. The IRS has also recently developed a desk guide
       for clerical staff and began training on July 16, 2012, for its use.
Recommendation 3: Ensure that an IRS-wide coordinated process is implemented to provide
guidance for timely and effective processing of Forms 3949-A. This should include ensuring
that Forms 3949-A reporting claims of identity theft are expedited to the appropriate Identity
Theft unit for processing and not forwarded as regular correspondence in the Accounts
Management function.
       Management’s Response: IRS management agreed with this recommendation and
       will review current procedures for necessary changes, including the expedited routing of
       forms reporting claims of identity theft.


                                                                                            Page 8
                         The Process for Individuals to Report Suspected
                          Tax Law Violations Is Not Efficient or Effective



The Process for Routing Information Referrals Is Not Effective and
Needs Improved Oversight
The IRS’s current method for processing Forms 3949-A is ineffective and needs improved
oversight. Of 530 Forms 3949-A reviewed:
      372 (70 percent) of the Forms 3949-A were correctly routed.
      46 (9 percent) of the Forms 3949-A were scheduled to be destroyed even though
       sufficient information was available to identify the appropriate IRS function.
      112 (21 percent) of the Forms 3949-A were routed to the incorrect IRS function.
Once Forms 3949-A reach a function, technical employees in the function screen and classify
them. If the function receives a misrouted Form 3949-A, it returns the form to the Accounts
Management function clerical unit responsible for initial screening to be rescreened and rerouted
to the correct function. Returned forms are placed in the daily receipts and are not processed
separately. If the Accounts Management function clerical unit cannot determine which IRS
function should receive a Form 3949-A, that form is sent to Retention. Misrouting delays
processing and results in workable Forms 3949-A being sent to Retention.

Forms 3949-A routed to Retention are not effectively reviewed before being
destroyed
On March 12, 2012, TIGTA auditors expressed concerns about the lack of quality review of
Forms 3949-A routed to Retention. Subsequently, the IRS conducted a review of all
Forms 3949-A processed over one day and sent to Retention. Twenty-two (50 percent) of the
44 Forms 3949-A in Retention were workable. Of the 22 workable forms:
      10 Forms 3949-A (45 percent) implicated a business and should have been forwarded to
       the Small Business/Self-Employed Division.
      7 Forms 3949-A (32 percent) did not contain a Social Security Number. However, with
       required research, the Social Security Numbers were identified.
      4 Forms 3949-A (18 percent) had a valid Social Security Number and should have been
       forwarded to an IRS function.
      ****************************************1*******************************
       ********************1***********************.
Based on this review, IRS management stated that the Accounts Management function clerical
unit had been informed of the procedure to better handle Forms 3949-A. Interim guidance was
distributed to all responsible clerical unit employees to help ensure all employees who process
Forms 3949-A have the correct guidance for screening. A new job function in the unit was

                                                                                          Page 9
                                  The Process for Individuals to Report Suspected
                                   Tax Law Violations Is Not Efficient or Effective



created—one clerk on a daily basis screens the prior day’s Retention Forms 3949-A to identify
any claims of identity theft.
However, our review of 210 Forms 3949-A routed to Retention and reviewed by IRS
management identified 44 (21 percent) that were workable. Of these 44 referrals:
           15 (34 percent) involved instances where the employees needed to associate the issue
            presented in the Form 3949-A with one of seven categories on the routing sheet.16 For
            example, if the Form 3949-A indicates that the tax violation involves a tax return
            preparer, then per the routing sheet and interim procedures, the referral should be
            automatically routed to a designated function with no further research needed.
           29 (66 percent) involved instances where information was missing on the Forms 3949-A,
            but the clerks had not adequately researched to identify the missing information.
Figure 4 presents the total Forms 3949-A that were destroyed for Fiscal Years 2010 through
2012 because of either a lack of procedures or lack of needed information or because they did
not relate to tax administration.
                             Figure 4: Volume of Forms 3949-A Destroyed
                                  for Fiscal Years 2010 Through 2012

                                               Fiscal Year          Fiscal Year      Fiscal Year
                      Destination                 2010                 2011             201217

                      Retention                   19,842               16,122          6,104

                     Source: Accounts Management function management information reports.

Referrals are often routed to incorrect locations
In Fiscal Year 2011, the volume of Forms 3949-A received and routed to other functions totaled
90,632. Based on our sample review results, an estimated 31,721 (35 percent) Forms 3949-A are
misrouted per year. Accounts Management function clerical unit employees reprocess these at a
cost of $6.53 each, totaling $207,138 spent for rework each year. This happened because there
are insufficient and inconsistent procedures providing guidance to employees on the correct
process for routing Forms 3949-A.
           No formal Internal Revenue Manual procedures exist. Draft procedures were sent to IRS
            National Headquarters in February 2012 for approval, but as of June 29, 2012, the
            procedures have not been issued to the Accounts Management function clerical unit.
            Currently, interim procedures are being used. However, clerks are using different


16
     The routing sheet lists seven categories that identify the routing locations.
17
     Through March 24, 2012.
                                                                                                   Page 10
                              The Process for Individuals to Report Suspected
                               Tax Law Violations Is Not Efficient or Effective



         versions. Some employees are using the incorrect procedures and routing sheets. At
         least five different revisions of the routing sheet are used, which often prevents the
         Form 3949-A from being routed to the correct location. For example, one sheet
         incorrectly results in certain identity theft claims being destroyed.
        Clerks who route Forms 3949-A are located in 27 different clerical units and under as
         many managers.18 IRS management could not immediately identify all employees who
         have participated in the routing process.
        No current training exists. The current program manager, in response to concerns raised
         by the TIGTA, stated that once formal Internal Revenue Manual procedures are
         established, a training class will be organized for the clerks and managers who screen
         Forms 3949-A.
        Clerks are not expected to conduct extensive research; it is not included in their training
         or position description. Technical employees would be better able to assess the
         allegations reflected on the forms to determine if the forms contain auditable issues.
        There is inadequate quality review of the Form 3949-A process. IRS management does
         not have effective oversight over the Form 3949-A routing process. In addition to the
         lack of quality reviews, management information reports are neither complete nor
         accurate, thereby hindering monitoring. IRS management stated that reports were
         missing weeks of information because of the management changes to the program.
        There is little coordination and communication between the Accounts Management
         function clerical unit and the functional areas receiving Forms 3949-A. When
         Forms 3949-A are misrouted, the functional areas return the forms to the clerical unit but
         provide little feedback as to why the forms are being returned. The IRS is unable to
         provide information regarding the volume of Forms 3949-A that are returned. With
         better communication, the IRS could use the results to better train the Accounts
         Management function clerical unit on proper routing.
Sufficient procedures and guidelines are integral to a quality internal control system. Internal
control is synonymous with management control and is a major part of managing an organization
and also serves as the first line of defense in safeguarding assets and preventing and detecting
errors and fraud. Internal controls help Government program managers achieve desired results
through effective stewardship of public resources.




18
  While the clerks who generally route Forms 3949-A are centrally located, the IRS uses clerks from other units in
Fresno, California, when workload is heavy.
                                                                                                          Page 11
                          The Process for Individuals to Report Suspected
                           Tax Law Violations Is Not Efficient or Effective



An online version of Form 3949-A would overcome some IRS challenges
Several Federal and State agencies employ an online version of their referral forms. Although
the IRS faces some unique challenges with respect to disclosure issues, an automated form
would overcome many issues that plague the current process. The current process does not
ensure that all needed information is included on the referral, does not aid the taxpayer in
understanding the type of issues for which Form 3949-A is intended to be used, does not provide
alternatives to the referral when it is not the appropriate means of communicating with the IRS,
does not allow, based on the information provided, direct routing (i.e., no intermediary sorting
and routing) to the appropriate IRS function, and does not include the IRS sending an
acknowledgement to the taxpayer.
Conversely, an online referral process could facilitate accurate tracking of referrals received and
their disposition. Additionally, an online referral process could greatly reduce the costs
compared to a paper-based referral process. In Fiscal Year 2011, the clerical unit that processes
Forms 3949-A cost approximately $759,000. If the current paper-based process continues over
five years, the IRS would expend approximately $3.8 million.
Burden would be reduced for taxpayers if they are offered the option of acknowledgement of
receipt of referrals by the IRS (which could be efficiently administered with an online referral
process). This would eliminate the need for taxpayers to submit more than one of the same
referral and provide assurance that the IRS is aware of the issue they reported. Based on
Fiscal Year 2011 referral volume, the IRS could potentially reduce burden each year for
116,307 taxpayers; over five years, burden could be reduced for 581,535 taxpayers.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 4: Implement controls that include developing formal Internal Revenue
Manual procedures, ensuring all employees have updated procedures for routing documents,
developing an effective and efficient quality review process, and developing a tracking system
that captures Forms 3949-A, including identifying Forms 3949-A that require rerouting.
       Management’s Response: IRS management agreed with this recommendation and
       recently developed a clerical staff desk guide. The IRS will also review current
       procedures and evaluate steps to ensure a more effective quality review process and
       tracking system.
Recommendation 5: Conduct a feasibility study for developing an online Form 3949-A that
ensures sufficient information is collected so that the forms can be routed directly to the
appropriate function for classification.



                                                                                            Page 12
                         The Process for Individuals to Report Suspected
                          Tax Law Violations Is Not Efficient or Effective



       Management’s Response: The IRS will ascertain the feasibility of developing an
       online Form 3949-A; however, it believes a prudent course of action would be to
       implement other recommended actions so their effects on the accuracy and volume of
       forms submitted can be considered.
Recommendation 6: Evaluate the Accounts Management function clerical unit routing
process to determine whether it would be more efficient if more technical employees assumed
the responsibilities of processing Forms 3949-A.
       Management’s Response: As part of the IRS’s evaluation on the feasibility of
       developing an online Form 3949-A, it will consider the effects other corrective actions
       have had on the handling and routing of the form and will assess the level of technical
       expertise required for the needs of the process.




                                                                                         Page 13
                         The Process for Individuals to Report Suspected
                          Tax Law Violations Is Not Efficient or Effective



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate whether the IRS is effectively processing Form 3949-A,
Information Referral. To accomplish our objective, we:
I.     Determined whether the method taxpayers use to report fraud is effective and reduces
       taxpayer burden.
       A. Identified the methods the IRS has for taxpayers to report fraud and determined
          whether those methods reduce taxpayer burden.
       B. Identified the purposes of Form 3949-A and determined whether the IRS is ensuring
          that taxpayers use the form for its intended purposes.
       C. Assessed Form 3949-A to determine whether the intended purpose and instructions
          are clear.
II.    Determined whether the process the IRS uses to handle, track, and control reports of
       fraud is effective.
       A. Identified the procedures and processes the IRS has in place to accept and process
          Forms 3949-A.
       B. Determined the procedures used to process the referrals received, placed in Retention,
          and forwarded to IRS functions and the actions taken to document the volumes.
       C. Determined the procedures used to evaluate referrals to determine the next
          appropriate action to be taken (retain, forward, or destroy).
       D. Determined whether the IRS provides an acknowledgement of receipt to taxpayers
          who submit referrals.
III.   Determined whether Accounts Management function clerical unit oversight is sufficient
       to ensure fraud referrals are effectively processed and routed to the appropriate IRS
       functions or offices.
       A. Interviewed responsible officials to determine what oversight is provided.
       B. Identified any guidelines, procedures, and reports used to oversee the referral process.
       C. Obtained and reviewed management information reports to assess the accuracy and
          usefulness of the data.



                                                                                          Page 14
                                The Process for Individuals to Report Suspected
                                 Tax Law Violations Is Not Efficient or Effective



           D. Identified and evaluated the quality control process.
               Reviewed two random statistical samples and three 100 percent samples of
               Forms 3949-A (including referrals made using other forms or letters) to determine the
               type of referrals and assess the effectiveness of the routing process, including the
               effectiveness of procedures and the quality assurance process. A 95 percent
               confidence level, a 10 percent expected error rate, and a ± 5 percent precision rate
               were used to select the samples. The population and sample details are as follows:

                  Area Routed                                Population Size   Sample Size
                  Small Business/Self-Employed                         390        1181
                  Wage and Investment Division                         422        1172
                  Retention                                            210        210
                  Identity Theft Unit                                   45         45
                  Correspondence                                        40         40
                                               TOTAL               1,107          530

           E. Evaluated the process the Accounts Management function clerical unit has in place
              to obtain feedback from the IRS functions and offices that ultimately receive
              Forms 3949-A. This would include if the referrals were timely transferred and were
              sufficient to work.
           F. Determined whether oversight is effective, and if not, determined the reasons why
              and measured the effect on tax administration.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the internal
controls relevant to our audit objective include the IRS’s internal guidelines used by the
Accounts Management function clerical unit that processes Forms 3949-A and the management
information systems used to control the referrals. We evaluated these controls by interviewing
management and reviewing policies and procedures. We also reviewed a statistical sample of
530 Forms 3949-A.


1
    Rounded up from a required statistical sample size of 111 forms.
2
    Rounded up from a required statistical sample size of 113 forms.
                                                                                             Page 15
                        The Process for Individuals to Report Suspected
                         Tax Law Violations Is Not Efficient or Effective



                                                                              Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Paula W. Johnson, Acting Director
Lena Dietles, Audit Manager
Robert Howes, Lead Auditor
Lynn Faulkner, Senior Auditor
Patricia Jackson, Senior Auditor
Geraldine Vaughn, Senior Auditor
Jerome Antoine, Auditor
Kathy Coote, Auditor
Nelva Usher, Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                     Page 16
                       The Process for Individuals to Report Suspected
                        Tax Law Violations Is Not Efficient or Effective



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attention: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner of Services and Operations, Wage and Investment Division SE:W
Chief Technology Officer OS:CTO
National Taxpayer Advocate TA
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Customer Account Services, Accounts Management SE:W:CAS:AM
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Chief, Program Evaluation and Improvement, Wage and Investment Division
                 SE:W:S:PEI
                 Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 17
                          The Process for Individuals to Report Suspected

                           Tax Law Violations Is Not Efficient or Effective




                                                                                 Appendix IV


                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Inefficient Use of Resources – Potential; $3.8 million (see page 9).

Methodology Used to Measure the Reported Benefit:
In Fiscal Year 2011, the routing operation in Fresno, California, cost approximately $759,000.
If the current paper-based process continues more than five years, the IRS would expend
approximately $3.8 million, a cost that an online process would greatly reduce. The online
process would also facilitate accurate electronic tracking of referrals received and their
disposition. There would, however, be a cost to the IRS to develop/implement an online
Form 3949-A process.

Type and Value of Outcome Measure:
   Taxpayer Burden – Potential; 581,535 taxpayers affected (see page 9).

Methodology Used to Measure the Reported Benefit:
Burden would be reduced for taxpayers if they are offered the option of acknowledgement of
receipt of referrals by the IRS. Acknowledgements of receipt would eliminate the need for
taxpayers to submit more than one of the same referral and provide assurance that the IRS is
aware of the issue they reported. Based on Fiscal Year 2011 referral volume, the IRS could
potentially reduce burden each year for 116,307 taxpayers; over five years this figure could reach
581,535 taxpayers.




                                                                                          Page 18
    The Process for Individuals to Report Suspected
     Tax Law Violations Is Not Efficient or Effective



                                                 Appendix V

Form 3949-A, Information Referral




                                                        Page 19
The Process for Individuals to Report Suspected
 Tax Law Violations Is Not Efficient or Effective




                                                    Page 20
        The Process for Individuals to Report Suspected
         Tax Law Violations Is Not Efficient or Effective



                                                    Appendix VI

Management’s Response to the Draft Report




                                                            Page 21
The Process for Individuals to Report Suspected
 Tax Law Violations Is Not Efficient or Effective




                                                    Page 22
The Process for Individuals to Report Suspected
 Tax Law Violations Is Not Efficient or Effective




                                                    Page 23
The Process for Individuals to Report Suspected
 Tax Law Violations Is Not Efficient or Effective




                                                    Page 24
The Process for Individuals to Report Suspected
 Tax Law Violations Is Not Efficient or Effective




                                                    Page 25
